U.S. Department of the Interior
Office of Inspector General




         SURVEY REPORT

        FIRE FIGHTER PAYROLL,
      ALBUQUERQUE AREA OFFICE,
       BUREAU OF INDIAN AFFAIRS

           REPORT NO. 96-I-1082
              AUGUST 1996
           United States Department of the Interior
                         OFFICE OF INSPECTOR GENERAL




MEMORANDUM

TO:

FROM:


SUBJECT SUMMARY:
                          Payroll, Albuquerque Area Office, Bureau of Indian
                          Affairs” (No. 96-I-1082)

Attached for your information is a copy of the subject final survey report. The
objective of the review was to determine whether the Bureau of Indian Affairs was
ensuring that fire fighter payroll checks were protected from misuse and whether fire
fighter payment transactions were recorded accurately and timely.

We found that the Albuquerque Area Office adequately protected fire fighter payroll
checks, accurately recorded fire fighter payment transactions, and improved the
timeliness of its submission of fire fighter payroll vouchers to the Bureau’s Division
of Accounting Management. Specifically, blank payroll checks were properly
secured, and internal controls were adequate to ensure that payroll disbursements
were proper and accurate. In addition, the Area Office significantly reduced the
voucher processing time during 1995. The report contained no recommendations.

If you have any questions concerning this report, please contact me or Mr. Robert
J. Williams, Acting Assistant Inspector General for Audits, at (202) 208-5745.



Attachment
                                                                   C-IN-BIA-005-96


           United States Department of the Interior
                         OFFICE OF INSPECTOR GENERAL
                                Washington, D.C. 20240




                             SURVEY REPORT

Memorandum

To:        Assistant Secretary for Indian Affairs




Subject    Final Survey Report on Fire Fighter Payroll, Albuquerque Area Office,
           Bureau of Indian Affairs (No. 96-I-1082)

                              INTRODUCTION
This report presents the results of our survey of fire fighter payroll disbursement
activities for the Bureau of Indian Affairs Albuquerque Area Office. We initiated
the review because of Bureau delays in processing payment vouchers for fire fighter
payroll that we found during our audit of the Bureau’s financial statements for fiscal
years 1993 and 1994. The objective of the review was to determine whether the
Bureau was ensuring that payroll checks were protected from misuse and whether
fire fighter payment transactions were recorded accurately and timely.

BACKGROUND

The Bureau is permitted to hire fire fighters specifically for a fire incident. These
fire fighters are classified as “casual” employees because their employment is
temporary and their employment is terminated as soon as the incident is over.
Individuals hired as fire fighters are required to pass a medical examination, a
physical fitness test, and minimum training requirements.

Bureau Assistant Disbursing Officers (ADO) are permanent Bureau employees who
have been designated by the Department of the Treasury Financial Management
Service to disburse payroll checks to fire fighters. An ADO is under the technical
supervision of the Financial Management Service for those activities pertaining to
disbursement functions, such as the custody, issuance, accounting for, and reporting
of Treasury checks. The Financial Management Service ADO Handbook provides
detailed guidance and procedures for ADOs on payroll disbursement functions.
According to the Handbook, ADOs are required to complete a Form SF-1166
disbursement voucher, which must be signed by a designated Bureau Certifying
Officer. The Certifying Officer is responsible for ensuring that the vouchers are
correct and that the proposed payments are charged to the proper appropriations or
funds involved.

The Bureau has 50 ADOs at 36 of its 95 area and agency offices. During fiscal year
1995, the Bureau expended about $11.9 million for fire fighter payroll. Of that
amount, $5.1 million was expended by the Albuquerque Area Office and its nine
agencies. The Albuquerque Area Office ADO processed fire fighter payroll for
seven of the nine agencies in the Area. The Zuni and Mescalero Agencies had their
own ADOs who processed payroll. These two agencies are authorized to process fire
fighter payroll because of the high number of fire incidents at those locations.

SCOPE OF SURVEY

Our survey was made in accordance with the “Government Auditing Standards,”
issued by the Comptroller General of the United States. Accordingly, we included
such tests of records and other auditing procedures that were considered necessary
under the circumstances. We sampled and reviewed voucher files for fire fighter
payroll for the period April 1994 through December 1995, observed payroll
disbursement procedures, and discussed payroll procedures with personnel
responsible for fire fighter payroll disbursements. Our survey was performed during
March through April 1996 at the Bureau’s Albuquerque Area Office; the Zuni
Agency in Zuni, New Mexico; and the Mescalero Agency, in Mescalero, New
Mexico.

In addition, we reviewed the Secretary’s Annual Statement and Report to the
President and the Congress, required by the Federal Managers’ Financial Integrity
Act, for fiscal year 1995 and determined that there were no reported weaknesses
related to the objective and scope of our survey.

PRIOR AUDIT COVERAGE

Neither the Office of Inspector General nor the General Accounting Office has
issued a report in the past 5 years concerning financial or administrative activities of
the Bureau’s fire fighter payroll. However, our audit of the Bureau’s financial
statements for fiscal years 1993 and 1994 disclosed significant delays in the Bureau’s
processing of fire fighter payroll disbursements.




                                           2
                         RESULTS OF SURVEY
We concluded that the Albuquerque Area Office adequately protected fire fighter
payroll checks, accurately recorded fire fighter payment transactions, and improved
the timeliness of its submission of fire fighter payroll vouchers to the Division of
Accounting Management and the U.S. Treasury. Specifically, we found that blank
payroll checks were maintained in locked combination safes; a minimum of two
independent reviews were performed on time sheets and disbursement vouchers;
adequate separation of duties existed between time sheet approval, check signature,
and disbursement voucher certification; disbursements recorded in the Bureau’s
financial system were reconciled with Treasury balances; and time sheets and check
carbons were maintained to support disbursements. In addition, the Albuquerque
Area Office significantly reduced the average number of days for processing fire
fighter payroll vouchers from 33 days in 1994 to 6 days in 1995.

Our review disclosed immaterial internal control weaknesses, which we discussed
with the Acting Albuquerque Area Director on May 10, 1996. The Acting Area
Director has implemented steps to correct these weaknesses,

Since this report does not contain any recommendations, no response is required.

The legislation, as amended, creating the Office of Inspector General requires
semiannual reporting to the Congress on all audit reports issued, the monetary
impact of audit findings, actions taken to implement audit recommendations, and
identification of each significant recommendation on which corrective action has not
been taken.

We appreciate the cooperation of Bureau personnel in the conduct of our audit.
                    ILLEGAL OR WASTEFUL ACTIVITIES
                        SHOULD BE REPORTED TO
                  THE OFFICE OF INSPECTOR GENERAL BY:


     Sending written documents to:                               Calling:


                        Within the Continental United States

    U.S. Department of the Interior                       Our 24-hour
    Office of Inspector General                           Telephone HOTLINE
    1550 Wilson Boulevard                                 1-800424-5081 or
.   Suite 402                                             (703) 235-9399
    Arlington, Virginia 22210

                                                           TDD for hearing impaired
                                                           (703) 235-9403 or
                                                           1-800-354-0996


                       Outside the Continental United States


                                     Caribbean Region

    U.S. Department of the interior                       (703) 235-9221
    Office of Inspector General
    Eastern Division - Investigations
    1550 Wilson Boulevard
    Suite 410
    Arlington, Virginia 22209


                                   North Pacific Region

    U.S. Department of the Interior                       (700) 550-7279 or
    Office of Inspector General                           COMM 9-011-671-472-7279
    North Pacific Region
    238 Archbishop F.C. Flores Street
    Suite 807, PDN Building
    Agana, Guam 96910
    I




“




    )
